                        DEPARTMENT    OF DEFENSE




            JOINT
        AUDIT REPORT

           DEPOT SOURCE OF REPAIR CODE

Report No. 98-155                    June 15, 1998
Additional Information and Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution Unit of
the Analysis, Planning, and Technical Support Directorate at (703) 604-8937 (DSN 664-8937)
or FAX (703) 604-8932 or visit the Inspector General, DOD, Home Page at:
www.dodig.osd.mil.

Suggestions for Audits

To suggest ideas for or to request future audits, contact the Planning and Coordination Branch
of the Anal sis, Planning, and Technical Support Directorate, at (703) 604-8908
(DSN 664- SI908) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

              OAIG-AUD (AlTN: APTS Audit Suggestions)
              Inspector General, Department of Defense
              400 Army Navy Drive (Room 801)
              Arlington, Virginia 22202-2884

~Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by
sending an electronic message to Hotline@DODIG.OSD.MIL; or by writing to the Defense
Hotline, The Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
is fully protected.




Acronyms

DLA                   Defense Logistics Agency
DLSC                  Defense Logistics Services Command
DSOR                  Depot Source or Repair
FLIS                  Federal Logistics Information System
JLC                   Joint Logistics Commanders
NIMSC                 Nonconsumable Item Materiel Support Code
PICA                  Primary Inventory Control Activity
SICA                  Secondary Inventory Control Activity
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                              400ARMY NAVYDRIVE
                          ARLINGTON,VIRGINlA 22202-2884


                                                                         June 15, 1998

MEMORANDUM FOR COMMANDANT, MARINE CORPS
               DEPUTY UNDER SECRETARY OF DEFENSE
                 (LOGISTICS)
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Audit Report on the Depot Source of Repair Code (Report No. 98-155)


        We are providing this report for your review and comments. The audit was
requested by the Joint Logistics Commanders. This joint audit was coordinated by the
DOD Joint Logistics Audit Planning Group and conducted by team members from the
Inspector General, DOD, and the Army, the Navy, and the Air Force audit
organizations. We considered management comments on a draft of this report in
preparing the final report.

       DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, we request that the Deputy Under Secretary of Defense (Logistics), the
Army, the Navy, and the Air Force provide comments on the final report by
August 14, 1998.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. James L. Sommer, e-mail sommerj@afaams.wpafb.af.mil, or
Mr. Steve C. Houlette, at (937) 257-5429, e-mail houlettes@afaams.wpafb.af.mil.     See
Appendix C for the report distribution. The audit team members are listed inside the
back cover.




                                        Robert’J. Lieberman
                                     Assistant Inspector General
                                             for Auditing
                                  Offke of the Inspector General, DOD

Report No. 98-155                                                                                             June 15,1998
   (Project     No. 7LD-5032)


                                     Depot Source of Repair Code

                                                Executive Summary

        Introduction. Since the early 196Os, the Joint Logistics Commanders have
        expressed concern about the proliferation of duplicate wholesale functions and
        facilities. A 1986 study’ of wholesale level support for friend or foe
        identification systems identified many multiple repair sources (due to a lack of
        visibility over other Services’ activities) for individual nonconsumable items.2
        To prevent unnecessary duplication, the Joint Logistics Commanders directed
        DOD logisticians to implement in the Defense Logistics Agency Federal
        Logistics Information System (FLIS) a depot source of repair (DSOR) code to
        identify repair sources. The Services accomplish this by inputting DSOR codes
        into their cataloging systems for transfer to the FLIS. Of 410,308
        nonconsumable items recorded in the FLIS as of March 31, 1996, 176,832
        items contained DSOR codes and the remaining 233,476 items were not coded.

        Objectives. The overall audit objective was to evaluate controls over the
        DSOR coding process. Specifically, we reviewed the procedures and controls
        DOD personnel used to ensure accurate code input and transfer to the FLIS.

        Audit Results. Of 410,308 nonconsumable items, an estimated 268,104 items
        (65.3 percent) were inactive. For the remaining active items,3 an estimated
        108,973 items (26.6 percent of 410,308 total items) had erroneous DSOR
        codes. Consequently, DOD maintenance managers were not always aware of
        established depot repair capabilities, including duplicate maintenance facilities
        for 38 of 145 active items reviewed. Finally, approximately $0.5 million of
        inventory unused in one Service can be transferred to other using Services to
        reduce planned procurements. See Part I for a discussion of the audit results.

        The management controls needed to be improved because we identified a
        material weakness in the process of inputting and transferring DSOR codes to
        the FLIS. See Appendix A for details on the management control program.

        Summary of Recommendations. We recommend that the Deputy Under
        Secretary of Defense (Logistics) task the Services to identify requirements that
        incorporate selected edits into the standardized cataloging system. We also
        recommend that the Deputy Under Secretary of Defense (Logistics) task the
        Director, Defense Logistics Agency, in coordination with the Military


        ’ Conducted     by the Joint Policy Coordinating     Group on Defense Integrated       Materiel Management   and
              Depot Maintenance    Interservicing,   1986.
        2 Nonconsumable      items are items not consumed       in use that are economically    repairable.
        3 Items with demands,      purchases,    or repairs within the 2 years preceding   the audit.
Departments, to expedite the system changes and other procedures necessary to
periodically validate DSOR code accuracy by identifying blank and “99” default
codes and update DOD Manual 4100.39-M. We recommend that the Services
update the FLIS to reflect accurate inactive and active DSOR code data;
establish a requirement to periodically validate DSOR code accuracy; and train
all personnel involved in the DSOR coding process. We recommend that the
Army and the Navy correct translation deficiencies for the repair codes in their
cataloging systems and that the Air Force and the Marine Corps develop Service
specific guidance for DSOR coding and cataloging. Finally, we recommend
that the Joint Logistics Commanders task the Joint Policy Coordinating Group
on Depot Maintenance to analyze maintenance facility duplication for individual
items.
Management Comments. The Acting Deputy Under Secretary of Defense
(Logistics) concurred with the recommendations stating that the Assistant
Deputy Under Secretary of Defense (Materiel and Distribution Management)
will task the Services and Defense Logistics Agency to implement the
recommendations. The Defense Logistics Agency stated that a requirement
exists to validate DSOR code accuracy, but to accomplish that the Services must
provide updated data faster. The Army concurred with the intent of the
recommendations, stating that changes in process to its automated system should
correct the vast majority of problems identified in the audit. The Army stated
that retraining would not be required because it is changing the automated
system logic to correctly update the DSOR codes. The Navy concurred with the
recommendations, stating that it will work with the Defense Logistics Services
Command to develop methods to correct existing active items. The Navy also
stated that specific training deficiencies would be addressed as they appeared.
The Air Force did not comment on a draft of this report. The Marine Corps
concurred with the recommendations, stating that it implemented service-
specific guidance and procedures for manual DSOR coding and cataloging. The
Army member of the Joint Logistic Commanders Joint Secretariat concurred
with the recommendation to analyze maintenance facility duplication, stating
that the Joint Policy Coordinating Group would be required to develop a plan of
action and provide periodic reports to the Joint Secretariat.

Audit Response. Based on Defense Logistics Agency comments, we revised
the recommendations to the Deputy Under Secretary by tasking the Defense
Logistics Agency to coordinate with the Military Departments to expedite the
update of the guidance and system changes necessary for validating DSOR code
accuracy. Comments from the Acting Deputy Under Secretary were
responsive; however, he did not provide completion dates for the
recommendations. Comments from the Army were partially responsive. It did
not address requirements to train personnel who update DSOR codes manually.
Comments from the Navy were partially responsive. The Nav did not provide
specific details and completion dates for correcting training de ?iciencies.
Neither the Army nor the Navy adequately addressed deletion of inactive items.
The Joint Logistics Commanders did not provide completion dates for the plan
of action and overall milestones. Therefore, we request that the Deputy Under
Secretary of Defense (Logistics), the Army, the Navy, the Air Force and the
Joint Logistics Commanders provide comments on the final report by
August 14, 1998.


                                   ii
Table of Contents

Executive Summary                                                      i

Part I - Audit Results

      Audit Background                                                2
      Audit Objectives                                                3
      Depot Source of Repair Code Accuracy                            4

Part II - Additional Information

      Appendix A. Audit Process
        Scope and Methodology                                         16
        Management Control Program                                    17
        Summary of Prior Coverage                                     17
      Appendix B. Sample Selection                                    18
      Appendix C. Report Distribution                                 20

Part III - Management Comments
      Acting Deputy Under Secretary of Defense (Logistics) Comments
      Joint Logistics Commanders Secretariat Comments
      Department of the Army Comments
      Department of the Navy Comments
      Defense Logistics Agency Comments
Part I - Audit Results
Audit Background

    This report discusses depot source of repair (DSOR) code processing controls
    over nonconsumable items. Nonconsumable items are items not consumed in
    use that are economically repairable. These include major end items (such as
    test equipment) and depot repairable components. The Joint Logistics
    Commanders (JLC) requested this audit because of their concerns that the
    Services’ inability to accurately code DSOR data had contributed to the Services
    independently developing duplicate repair sources for nonconsumable items,
    which resulted in potentially uneconomical and inefficient depot maintenance
    infrastructure. Inefficiencies increase asset repair prices, use more operations
    and maintenance funds, and reduce the Services’ purchasing power.

    In 1973, the JLC established the Joint Policy Coordinating Group on Defense
    Integrated Materiel Management and Depot Maintenance Interservicing to
    eliminate duplicate wholesale management functions (budgeting, cataloging,
    disposal, maintenance, procurement, requirements computation, and wholesale
    stockage) for nonconsumable items used by more than one Service. In 1974,
    the Deputy Secretary of Defense directed the Services to start the consolidation
    process, and the JLC in turn directed the Services to develop a two-phased
    program.

    Phase I was to identify all nonconsumable items used by two or more Services
    and to assign each item a single manager. Materiel management responsibility
    was to be weighed heavily in favor of the Service having the most significant
    technical and depot maintenance capability supporting the item.

    Phase II was to consolidate under the single manager the wholesale logistics
    functions of asset accountability, depot maintenance, overhaul requirements
    computation, and replacement. Specifically, Phase II included assigning each
    item to a primary inventory control activity (PICA), with all other users
    becoming secondary inventory control activities (SICAs) for that item. SICAs
    would provide PICAS with DSOR codes and PICAS would input both PICA and
    SICA derived codes into the Federal Logistics Information System (FLIS), a
    database maintained by the Defense Logistics Agency @LA).

    The JLC established the Joint Depot Maintenance Program to maintain the
    minimum infrastructure necessary to meet depot repair requirements. To test
    the program, in 1986, the Joint Policy Coordinating Group on Defense
    Integrated Materiel Management and Depot Maintenance Interservicing
    evaluated wholesale level support for friend or foe identification systems.
     Analysts found widespread disregard of repair source assignments resulting in
     numerous redundant maintenance facilities. The Services explained that
     establishing redundant facilities often resulted from a lack of visibility of other
     Services’ maintenance activities. Therefore, the JLC directed a DLA activity,
     the Defense Logistics Services Command @LX), the Joint Depot Maintenance
     Analysis Group, and the Services to establish the DSOR coding requirement.
     The DSOR coding requirement was later included in the joint Army, Navy, Air
     Force, and Marine Corps regulation, “Wholesale Inventory Management and
     Logistics Support of Multiservice Used Nonconsumable Items,“1 April 27,
     1990, and DOD Manual 4100.39-M, “FLIS Procedures Manual,” January 1995.
     The 1991 DSOR code implementation required the Services to develop
     processes and procedures to ensure code input for each newly acquired item and
     current inventory assets requiring depot repair. Subsequent to the initial DSOR
     code update, codes requiring manual input were often left blank.

     The DSOR coding was to be transferred from the Service cataloging systems to
     the FLIS maintained by DLA. DOD plans to modify the Service cataloging
     systems by consolidating them into one standard, centralized system that the
     DLA Cataloging and Standardization Center at Rattle Creek, Michigan, will
     operate. DOD is early in the conceptualization phase of the consolidation;
     therefore, a system implementation date has not been established.

     This audit supports the National Performance Review goal of encouraging
     actions that minimize cost growth in major defense acquisition programs to no
     greater than 1 percent annually, by helping to preclude the establishment of
     redundant maintenance infrastructure. The audit also supports the DOD
     strategic logistics goal of streamlining logistics infrastructure by reducing
     weapon system ownership costs.

Audit Objectives

     The overall audit objective was to evaluate controls over the DSOR coding
     process. Specifically, we reviewed the procedures and controls DOD personnel
     used to ensure accurate code input and transfer to the FLIS. Appendix A of this
     report provides details on our scope, methodology, and the management control
     program and summarizes prior audit coverage.




     1 Army Materiel Command Regulation 700-99, Naval Supply Systems Command Instruction 4790.7, Air
        Force Materiel Command Regulation 400-21, and U.S. Marine Corps Order P4410.22C.




                                                3
            Depot Source of Repair Code Accuracy
            Of 410,308 nonconsumable items recorded in the FLIS, an estimated
            268,104 items (65.3 percent) were inactive. For the remaining active
            items, an estimated 108,973 items (26.6 percent of 410,308 total items)
            had erroneous DSOR codes. The codes were inaccurate because
            procedures and controls that DOD personnel used to ensure accurate code
            input and transfer to the FLIS were not adequate. Specifically,

                   l edits for FLIS and Service cataloging systems did not prevent
            some erroneous DSOR codes from transferring to the FLIS,

                   l DOD Manual 4100.39-M did not contain all the necessary
            depot repair location codes,

                     l the Army and Navy cataloging systems contained coding
            translation deficiencies,

                    l the Services did not establish a requirement to periodically
            validate FLIS DSOR code accuracy,

                   l the Services did not properly train personnel in the DSOR
            coding process,

                    l the Air Force and Marine Corps did not develop Service-
            specific guidance for manual DSOR coding and cataloging, and

                   l   the Services were classifying items inconsistently.

            As a result, DOD maintenance managers did not have available the data
            necessary to identify potential duplicate repair facilities and resource
            inefficiencies. In addition ,approximately $0.5 million of inventory
            unused in one Service could be transferred to other Services to reduce
            planned procurements.



Policies and Procedures

     As new items are cataloged into the DOD supply system, a source of repair for
     nonconsumable items should be identified. The joint Service regulation requires
     the maintenance interservice support management officer within each Service to
     provide DSOR codes to the PICA manager for FLIS input through the Service
     cataloging system to reflect the authorized source of repair. PICA item
     managers also input SICA-derived DSOR codes. DOD Manual 4100.39-M,
     volume 10, table 117, lists the DSOR codes that the Services use to identify
     depot repair organizations.



                                          4
                                                      Depot Source of Repair Code Accuracy


DSOR Coding Process

    The FLIS included inactive and active items with inaccurate DSOR codes. Of
    410,308 nonconsumable items recorded in the FLIS, an estimated 268,104 items
    (65.3 percent) were inactive. For the remaining active items, an estimated
    108,973 items (26.6 percent of 410,308 total items) had erroneous DSOR codes
    (see Appendix B for sampling plan and results).

    Inactive and erroneous DSOR coded items occurred in all (frequently in some)
    Services (see Table 1). Erroneous codes were the responsibility of the
    managing Service (that is, PICAS were responsible for entering their codes and
    the SICA-derived codes). We evaluated the FLIS DSOR codes using
    250 sampled items, both random and judgmental, to determine the causes for
    erroneous inputs of inactive and active items for each of the Services. The
    mathematical outcome of the samples for each of the Services shown in the
    following analyses are for discussion purposes only and cannot be statistically
    projected to the universe of items in each of the Services.

                                Table 1. Inactive and Active Items’

                                                           Active DSOR Items

                                                  correct          Erroneous               Total
                                Inactive          DSOR               DSOR                  Items
        Service                  Items            Codes              Codes               Reviewed

        Army                                          22                40
        Navy                       :‘6                                                      1;:
        Air Force                                     3;                ;:                  149
        Marine Corps                                  4                 24                  40

                                  207                                  132

    l   Includes random and judgmentally sampled items; many of the items were used by more than one
        Service.


    Erroneous codes occurred because the procedures and controls that DOD
    personnel used to ensure accurate code input and transfer to the FLIS were
    not adequate. Specifically, neither FLIS nor Service cataloging systems
    prevented unassigned DSOR codes from transferring to the FLIS, DOD
    Manual 4100.39-M did not contain all the necessary depot repair location codes,
    the Army and Navy cataloging systems had coding translation deficiencies, none
    of the Services established a requirement to periodically validate FLIS DSOR
    code accuracy, the Services were not training personnel in the coding process,
    and the Air Force and Marine Corps had not developed Service-specific
    guidance for manual DSOR coding and cataloging.




                                                  5
Depot Source of Repair Code Accuracy


Automated and Manual DSOR Coding

      The Services used two approaches to input source of repair codes into their
      cataloging systems for FLIS updates. The two approaches were automated
      coding and manual coding.

      Automated DSOR Coding Process. Coding translation deficiencies of the
      Army and the Navy cataloging systems contributed to coding problems. The
      Army and the Navy used an automated translation process under which item
      managers input Service unique PICA repair codes into the cataloging systems.
      The s stems would automatically translate codes into the DSOR codes for FLIS
      trans ?er. That approach was effective only for PICA data. Item managers still
      needed to manually input SICA-derived DSOR codes directly into the FLIS.

               Army DSOR Coding. We reviewed 94 Army sample items, 62 active
      and 32 inactive. In the sample of 94 items were 22 active items and 17 inactive
      items that had correct FLIS DSOR codes. The remaining sample items had
      erroneous FLIS DSOR codes! 40 active items and 15 inactive items. Of the
      55 erroneous active and inactive items, 44 were erroneous Army PICA inputs
      and the remaining 11 were Army-used items (that is, the Army was the SICA)
      with erroneous inputs by other PICAS. Army item managers inputted a routing
      identifier code for repair into the cataloging system, the Commodity Command
      Standard System. The system translated the routing identifier code for repair
      into the two-character DSOR code identifying the depot repair site, then
      transfered the code to the FLIS.

      Several factors can cause an erroneous FLIS DSOR code. First, the Army
      cataloging system did not contain edits to prevent an inaccurate code “99” from
      transferring to the FLIS. If system translation deficiencies prevent the Army
      cataloging system from creating a valid DSOR code, the system will, by
      default, assign an inaccurate code “99” (unassigned repair source) and transfer
      the unassigned code to the FLIS. Second, FLIS edits allowed item managers to
      enter nonconsumable item materiel support codes (NIMSC) * indicating that
      depot maintenance was being retained without requiring an associated DSOR
      code to be entered into the system.

      Third, DSOR codes in DOD Manual 4100.39-M, volume 10, table 117, were
      not updated and did not contain all the necessary DSOR codes. For example,
      when base closures or realignments changed repair locations, the Manual was
      not updated. Such an instance happened at the U.S. Army Communications-
      Electronics Command Security Logistics Activity. The Activity had listed the
      Lexington Bluegrass Army Depot as the FLIS repair location. DOD downsizing




     *    The NIMSC identifies PICA and SICA managers and asset support relationships. NIMSC “1”
         indicates items used by the SICA, whereby both the SICA and PICA repair the item. NIMSC ‘2”
         indicates assets where the SICA cannot use the repaired item, yet both the PICA and SICA repair the
         item.




                                                     6
                                                       Depot Source of Repair Code Accuracy

closed that depot and transferred the work load to the Tobyhanna Army Depot.
The DLA organization responsible for the Manual, the DLSC, did not revise the
Manual to reflect the new repair location.

When an item manager at the Activity manually corrected the code by later
adding the routing identifier code for repair to the Army cataloging system, the
system converted the code to a DSOR code and automatically transferred it to
the FLIS. Although the code was corrected in this instance, the update process
was not always accomplished. Personnel at the Army Logistics Systems
Support Center said the conversion process often failed, but they could neither
explain why the translator system did not update the repair code nor produce
documentation explaining how the update should operate. Those problems were
exacerbated by personnel not periodically validating DSOR codes because
guidand did not require such validation, and because personnel were not
trained to perform the validation. For example, the Army was the PICA on a
position and azimuth determination equipment item with FLIS DSOR code
“99.” The Marine Corps was a SICA for the item, and because it had not
assigned a repair location, the FLIS DSOR code “99” entered into the system
was correct for the Marine Corps. However, a contractor repaired the item for
the Army. Because of system translator problems and because personnel were
not periodically validating the codes, the Army PICA had not identified the
error. DOD possibly could save funds by sending the Marine Corps assets to
the Army contractor for repair.

         Navy DSOR Coding. We reviewed 125 Navy sample items, 39 active
and 86 inactive. In the sample of 125 items were 2 active items and 5 inactive
items that had correct FLIS DSOR codes. The remaining sample items had
erroneous FLIS DSOR codes, 37 active items and 81 inactive items. Of the
118 erroneous active and inactive items, 55 were erroneous Navy PICA inputs
and the remaining 63 were Navy-used items (that is, the Navy was the SICA)
with erroneous inputs by other PICAS. For Navy PICA items, cataloging or
systems personnel inputted a six-character unit identification code into the
cataloging system, the Repairables Management File. The s stem translated the
identification code into the two-character DSOR code identi rying the depot
repair site, then transferred the code to the FLIS.

Several factors can cause an erroneous FLIS DSOR code. If system translation
deficiencies prevent the Repairables Management File from creating a valid
DSOR code, then the system will assign code “99” and transfer it to the FLIS.
Erroneous coding occurred often because the Navy had not revised the logic
table of the cataloging system that related unit identification and DSOR codes
since the system’s 1990 implementation. A correction or update to the
cataloging system did not automatically update the FLIS; a cataloging
transaction (which personnel did not always perform) was required. Finally,
the Repairables Management File did not contain system edits to prevent an
erroneous4 code Y9* from transferring to the FLIS and the FLIS did not

’   Army Materiel Command Regulation     700-99.

’   The only valid DSOR code ‘99” occurs for items lacking depot repair facility assignments.




                                                   7
Depot Source of Repair Code Accuracy

      contain an edit to prevent it from accepting erroneous codes. For example, the
      Navy was the PICA on an amplifier that had an incorrect FLIS DSOR code
      “99.” The code was incorrect because we determined that a Navy depot
      repaired the item. The Air Force SICA DSOR code correctly identified the
      Navy depot, but the item was obsolete in the Air Force and had no recent
      activity. Although the Air Force had identified the correct DSOR code, the
      FLIS was inaccurate because a correction or update to the Navy cataloging
      system did not occur.

      Manual DSOR Coding Process. The Air Force and Marine Corps did not
      develop Service-specific guidance for manual DSOR coding and cataloging.
      The Arr Force and the Marine Corps used a manual coding process under which
      item managers input DSOR code data into the Service cataloging systems,
      rendering code conversion unnecessary. Item managers also entered the SICA-
      derived DSOR codes.

              Air Force DSOR Coding. We reviewed 149 Air Force sample items,
      70 active and 79 inactive. In the sample of 149 items were 39 active items and
      30 inactive items that had correct FLIS DSOR codes. The remaining sample
      items had erroneous FLIS DSOR codes, 31 active items and 49 inactive items.
      Of the 80 erroneous active and inactive items, 50 were erroneous Air Force
      PICA inputs and the remaining 30 were Air Force-used items (that is, the Air
      Force was the SICA) with erroneous inputs by other PICAS. For Air Force
      PICA items, item managers; equipment specialists; or program managers
      inputted the two-character DSOR code into the cataloging system, the Master
      Item Identification Control System. The System transferred the DSOR code to
      the FLIS. In Air Force cataloging, system edits require managers to input a
      DSOR code to complete the process.

      Most Air Force managers we dealt with were not familiar with DSOR coding
      and its ramifications because they had insufficient guidance and training.
      Consequently, the Air Force managers usually input code “99” for items to
      b ass the system edit. For example, the Air Force was the PICA on a
      J p5-21 engine fuel control. Although a contractor repaired the item for the Air
      Force, the FLIS DSOR code had been incorrectly input as a code ‘99.” The
      Na SICA DSOR code for the engine fuel control was also incorrectly coded
      as TU 9. n The code was incorrect because the Navy sent the asset to the same
      contractor as the Air Force and to an Air Force depot for repair.

              Marine Corps DSOR Coding. We reviewed 40 Marine Corps sample
      items, 30 active and 10 inactive. In the sample of 40 items were 6 active items
      and 3 inactive items that had correct FLIS DSOR codes. The remaining sample
      items had erroneous FLIS DSOR codes, 24 active items and 7 inactive items.
      Of the 31 erroneous active and inactive items, 2 were erroneous Marine Corps
      PICA inputs and the remaining 29 were Marine Corps-used items (that is, the
      Marine Corps was the SICA) with erroneous inputs by other PICAS. The two
      erroneous codes were for items only the Marine Corps used. For Marine Corps
      PICA items, item managers, equipment specialists, or weapon system managers
      input the two-character DSOR code into the cataloging system, the Technical
      Data Management System. The System transfers the DSOR code to the FLIS.

      The Marine Corps cataloging system contained no system edits to ensure that
      DSOR codes were input into the s stem correctly. Further, most Marine Corps
      managers we dealt with were not ramiliar with DSOR coding and its


                                          8
                                                         Depot Source of Repair Code Accuracy

     ramifications because they had insufficient guidance and training.
     Consequently, both items, for which the Marine Corps was the PICA were
     input into its cataloging system incorrectly. For 29 of the remaining 38 items,
     as a SICA the Marine Corps was forwarding incorrect DSOR code data to the
     PICA. For example, the Army was the PICA on a Dragon Missile electronic
     component assembly and had correctly coded the FLIS with the Army depot
     repair location. The Marine Corps SICA DSOR code reflected an incorrect
     Army depot repair location. Nevertherless, the Marine Corps sent the asset to
     the correct Army depot for repair, which was different than the SICA DSOR
     code.



Duplicate Maintenance Facilities

     DOD maintenance planners were not always aware of established depot repair
     capabilities; therefore, duplicate maintenance facilities existed for
     38 (26 percent) of 145 active item@ reviewed. For example, the Air Force was
     the PICA on a sleeve bearing with FLIS DSOR code “99”; and an Air Force
     depot repaired the item. The Navy SICA DSOR code field was blank for the
     same item and the Navy sent the item to a contractor for repair. Because of the
     incorrect code and the missing code for the same item, managers in either
     Service would not be aware of the duplicate maintenance facilities.



Item Classification

     In all Services, asset managers did not consistently classify items as consumable
     or nonconsumable during the cataloging process. For example, for 22 (see
     Table 2) of our 250 random and judgmental sample items, items classified as
     consumable in some Services, but nonconsumable in other Services, were not
     visible to all users. That lack of visibility resulted in inefficient use of resources
     because Services planned to dispose of about $540,000 of assets6 that other
     Services could repair and use. For example, the Air Force managed a
     nonconsumable item, TF33/999E engine compressor blade with FY 1997
     purchase requirements of 748 assets, valued at $137,410. The Navy managed
     the same item as a consumable 557 engine component that was retired in 1991.
     Although the Navy still held sufficient quantities of the item to satisfy the Air
     Force requirement, it was planning to dispose of the asset. As a result of our
     audit, the Navy transferred the required assets, and additional assets, valued at
     $540,000 to the Air Force. The Navy had total assets valued at $6.5 million
     that it planned to dispose that other Services could use or repair. After

     ’ During the audit, we provided a list of the 38 items to the Joint policy Coordinating Group on Depot
       Maintenance.

     ’ During the audit, we provided a list of the $540,000 of assets that could be repaired and used to the
       Services.




                                                     9
Depot Source of Repair Code Accuracy


      transferring the $540,000 worth of assets to the Air Force, the Navy still retains
      almost $6 million of serviceable J57 engine components that the Air Force could
      use on its active TF33 engine.


                              Table 2. Services Inconsistently                     Classified Items
          Service
          Classified
          Items as                                Service Classified Items as Nonconsumable
          Consumable                       Armv           Navv          Air Force     Marine Corps

          Army
          Navy
          Air Force
          Marine Corps

            Total’                           6                  2                      13                      2

      l   The total exceeds   22 because   one item was classified   differently   in more than one Service.


      As shown above, the Navy classified two items as consumables that were
      considered nonconsumables in the Army.


Summary

      Improvements are needed in controls over the DSOR coding process and
      maintenance of the data base. Of 410,308 nonconsumable items recorded in the
      FLIS, an estimated 268,104 items (65.3 percent) were inactive. Inactive items
      are candidates for review and deletion. For the remaining active items, an
      estimated 108,973 items (26.6 percent of 410,308 total items) had erroneous
      DSOR codes. Accurate DSOR coding can help DOD maintenance managers
      identify potential duplicate maintenance facilities and reduce or eliminate
      resource inefficiencies. By improving guidance, data system procedures, and
      training, DOD can enhance the DSOR coding process.



Management Actions

      During the audit, DLSC systems personnel were working on a systems change
      to enhance FLIS edits to ensure the system accepts only DSOR code ‘99” for
      those situations in which depot repair has not been established. DLSC advised
      us that it implemented the change on October 1, 1997. DLSC personnel also
      expressed a willingness and desire to work with the Services to update the FLIS
      data similar to a 1994 DLSC data cleanup on asset demilitarization codes.




                                                           10
                                             Depot Source of Repair Code Accuracy

    Additionally, during the audit, Air Force managers requisitioned serviceable
    assets from the Navy that the Navy was planning to dispose. The Air Force
    then canceled its pending purchase of those assets and realized $54O,OW in
    monetary benefits.



Recommendations, Management Comments, and Audit
Response

    Revised Recommendations.   Based on comments from DLA, we revised
    Recommendations  2.a. and 2.b.

    1. We recommend that the Deputy Under Secretary of Defense (Logistics)
    task the Services to identify requirements that incorporate selected edits
    into the standard cataloging system being designed. The edits should:

             a. Limit valid depot source of repair (DSOR) code “99” to those
    situations in which depot repair has not been established.

               b. Require managers to input a DSOR code for all items with repair
    sources.

    2. We recommend that the Deputy Under Secretary of Defense (Logistics)
    task the Director, Defense Logistics Agency, in coordination with the
    Military Departments, to expedite the:

           a. Update of DOD Manual 4100.39-M,         table 117, with correct depot
    repair location codes.

            b. System changes or other procedures necessary to periodically
    validate DSOR code accuracy by identifying blank codes or code “99” and
    referring the items to Service maintenance interservice support
    management officers for correction.

    Acting Deputy Under Secretary of Defense (Logistics) Comments. The
    Acting Deputy Under Secretary of Defense (Logistics) concurred, stating that
    the Assistant Deputy Under Secretary of Defense (Materiel and Distribution
    Management) will task the Services and DLA to implement the
    recommendations. His office will provide details concerning completion dates
    after completion of necessary planning.

    Defense Logistics Agency Comments.        Concerning Recommendation 2.a.)
    DLA stated that the DSOR codes in Table 117 are not used to identify the repair
    source for national stock numbered items. The DSOR codes are used to identify
    authorized depot sources of repair that item managers use for cataloging in the
    FLIS. DOD Manual 4100.39-M requires the Military Services’ Maintenance
    Interservice Support Offices to keep DSOR codes updated. The DLA Defense
    Logistics Information Service updates the DOD Manual and the FLIS from the



                                        11
Depot Source of Repair Code Accuracy

      changes submitted by the Services and the Joint Depot Maintenance Analysis
      Group. Consequently, the Services need to accelerate their actions to update
      codes so DLA can correct erroneous codes in the FLIS and DOD Manual.
      Concerning Recommendation 2.b., DLA stated that the requirement to
      periodically validate DSOR code accuracy by identifying blank codes or code
      “99” for referral to the Services for correction already exists. A system change
      request was initiated in 1988 to made necessary system changes to the FLIS and
      actions are ongoing to accomplish all the changes in the system change request.
      Completion dates for the remaining changes cannot be estimated and DLA
      recommended the recommendation be dropped.

      Audit Response. We revised Recommendations 2.a. and 2.b., based on DLA
      comments. However, we believe Recommendation 2.b. is still valid because
      the system changes have not been completed and the problems from erroneous
      DSOR codes will not be corrected. Consequently, we request that the Deputy
      Under Secretary of Defense (Logistics) provide additional comments on
      Recommendations 2.a. and 2.b. and the estimated completion dates for
      Recommendations 1.a., 1.b., 2.a.) and 2.b. in response to the final report.

      3. We recommend that the Commanders, Army Materiel Command, Naval
      Supply Systems Command, and Air Force Materiel Command, and the
      Marine Corps Deputy Chief of Staff (Installations and Logistics):

             a. Coordinate with the Defense Logistics Services Command to
      develop a systems capability to update the Federal Logistics Information
      System by deleting inactive items and correcting all erroneous data for
      remaining active items.

             b. Establish a requirement to periodically validate DSOR code
      accuracy.

           c. Train all personnel involved in the DSOR coding process to input
      DSOR codes accurately and timely and perform DSOR code validation.

      Army Comments. The Army concurred with the intent of the
      recommendations. It stated that erroneous data in the DOD Manual was revised,
      the modification of the DSOR validation routine was completed, and system
      changes to complete the edit modifcation process are targeted for completion by
      the second quarter in FY 1999. The Army will delete the inactive items
      through the normal Defense Inactive Item Program because other means would
      be inefficient. The Army further stated that because its system logic is being
      changed to update the DSOR, retraining is unnecessary.

      Audit Response. Comments from the Army are generally responsive. The
      normal Defense Inactive Item Program may be an efficient method for deleting
      inactive items. However, the Army ineffectively utilized the Program in the
      past as indicated in our audit sample, whereby, 32 of 94 of our sampled items
      were inactive and had not been deleted. Concerning the need to retrain
      personnel in the DSOR coding process, our audit indicated that SICA-derived
      DSOR codes were manually input into the FLIS. Consequently, the Army
      system changes may correct automated errors but would have no affect on
      manual DSOR coding. Therefore, we continue to believe that those personnel
      required for manual DSOR coding should receive appropriate training to


                                         12
                                        Depot Source of Repair Code Accuracy

increase the potential for accurate DSOR codes entered into the FLIS. We
request that the Army provide an estimated completion date for eliminating
inactive items and provide additional comments on the need to train personnel in
the DSOR coding process in response to the final report.

Navy Comments. The Navy concurred, stating that it will work with DLSC in
developing a cost-effective method for correcting existing active items and Navy
representatives to the Joint Depot Maintenance Analysis Group will provide the
necessary data to eliminate the erroneous codes. Additionally, systems
development for intra-Navy interfaces and programming changes needed to
periodically validate DSOR codes will be completed in July 1999. Further, the
Navy will address specific deficiencies in training personnel as they appear.

Audit Response. The Navy comments were generally responsive. The Navy
did not address any action for deleting inactive items. Also, the Navy did not
provide sufficient information on training personnel in the DSOR coding
process and a completion date for that action. We request that the Navy provide
additional comments on deleting inactive items and more specific details on
training personnel and the estimated completion dates in response to the final
report.

Air Force Comments. The Air Force did not provide comments on a draft of
this report. Therefore, we request that the Air Force provide comments in
response to the final report.

Marine Corps Comments. The Marine Corps concurred, stating that it will
pursue the development and incorporation of a systems capability in Phase III of
the Asset Tracking for Logistics and Supply System to update the FLIS that is
expected to be completed December 3 1, 2ooO. Additionally, the Marine Corps
was required in August 1997 to conduct file maintenance with periodic reviews
to ensure assigned DSOR codes remain current. Finally, the Marine Corps has
implemented semiannual DSOR training sessions for all equipment
specialist/provisioners, weapon system managers, catalogers, and item
managers.

4. We recommend that the Commanders, Army Materiel Command and
Naval Supply Systems Command, correct deficiencies in their cataloging
systems for translating repair codes.

Army Comments. The Army concurred. It stated that it has initiated a
two-phased program that implemented tables in the revised DOD
Manual 4140.39-M and modified the DSOR valid edit routine. It will also
complete the edit modification process through system changes to its automated
system. Phase I has been completed and the target completion date for Phase II
is the second quarter of FY 1999.

Navy Comments. The Navy concurred. It stated that deficiencies in the
cataloging system for translating repair codes were corrected with changes to the
Data Interchange Program that were mandated by DLSC and were implemented
October 1, 1997.




                                   13
Depot Source of Repair Code Accuracy

      5. We recommend that the Commander, Air Force Materiel Command and
      the Marine Corps Deputy Chief of Staff (Installations and Logistics)
      develop Service-specific guidance for manual DSOR coding and cataloging.
      Air Force Comments. The Air Force did not provide comments on a draft of
      this report. Therefore, we request that the Air Force provide comments in
      response to the final report.

      Marine Corps Comments. The Marine Corps concurred, stating that the
      recommendation was implemented in Commander, Marine Corps Logistics
      Bases Policy Statement 1l-97, “Assignment of Depot Source of Repair (DSOR)
      Codes, * August 5, 1997. The policy provides service-specific guidance and
      procedures for manual DSOR coding and cataloging.

      6. We recommend that the Joint Logistics Commanders task the Joint
      Policy Coordinating Group on Depot Maintenance to analyze maintenance
      facility duplication identified in this audit for potential workload
      consolidation.

      Joint Logistics Commanders Comments. The Army member of the Joint
      Logistic Commanders Joint Secretariat concurred, stating that the Joint Policy
      Coordinating Group would be required to develop a plan of action with
      milestones and to provide the status of work on this task in periodic reports to
      the Joint Secretariat.

      Audit Response. We request that the Joint Logistics Commanders provide the
      estimated completion dates for the plan of action and overall milestones in
      response to the final report.




                                          14
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology

    We reviewed DOD and Service policies and procedures for assigning and
    inputting DSOR codes into Service cataloging systems and the FLIS. To
    determine DSOR code accuracy, we visited 24 Army, Navy, Air Force, and
    Marine Corps inventory control points. At those locations, we interviewed
    inventory managers, maintenance interservice support management officers,
    equipment specialists, cataloging system managers, and training personnel. We
    sampled 250 of 410,308 nonconsumable DOD items as of March 31, 1996, and
    compared DSOR codes in Service cataloging systems with the FLIS DSOR
    codes. In addition, we interviewed Joint Depot Maintenance and Analysis
    Group personnel to understand the coding process within DOD maintenance
    organizations. Detailed sample information is in Appendix B.

    DOD-wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the GPRA, DOD established 6 DOD-wide
    corporate level performance objectives and 14 goals for meeting these
    objectives. This report pertains to achievement of the following objective and
    goal.

              Objective: Fundamentally reengineer DOD and achieve 21st century
              infrastructure. Goal: Reduce costs while maintaining required
              military capabilities across all DOD mission areas. (DOD-~)

    DOD Functional Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           o Logistics Functional Area. Objective: Develop a seamless logistics
             system. Goal: Improve the communication of logistics information
             (developing and implementing an integrated data environment to
             expand Electronic Data Interface, and enhance information exchange
             with DOD, with industry, other government agencies, and with
             allies). (LOG2.2)

           o Logistics Functional Area. Objective: Streamline logistics
             infrastructure, Goal: Implement most successful business practices
             frc3g1f        reductions of minimally required inventory levels).
                      .

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high risk areas in the DOD. This report provides coverage
    of the Defense Infrastructure and Defense Inventory Management high risk
    areas.


                                       16
                                                        Auuendix A. Audit Process


    Use of Computer-Processed      Data. We selected sample data from the FLIS
    without reviewing the system’s general and application controls. As discussed
    in this report, the FLIS contained significant inaccurate DSOR coding.

    Audit Type, Dates, and Standards. This economy and efficiency audit was
    conducted from April through November 1997. The audit was conducted in
    accordance with auditing standards issued by the Comptroller General of the
    United States, and accordingly, included such tests of internal controls as were
    considered necessary.

    Contacts During the Audit.  We visited or contacted individuals and
    organizations within DOD. Further details are available upon request.



Management Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Controls. The audit evaluated the adequacy
    of Service controls over the DSOR coding process. Specifically, we evaluated
    the controls that the Services used to input DSOR codes into the Service
    cataloging systems that transfer the codes to the FLIS.

    Adequacy of Management Controls. The audit identified material internal
    control weaknesses as defined by DOD Directive 5010.38. Management
    controls were not adequate to ensure that the Service DSOR coding process was
    accurate. Specifically, all Services had erroneous FLIS DSOR codes. All
    recommendations, if implemented, should correct the identified weaknesses.
    We identified potential monetary benefits of $0.5 million in reduced
    procurements by transferring unused inventory between the Services. A copy of
    this report will be provided to the senior officials in charge of management
    controls in the Office of the Secretary of Defense and the Services.

    Adequacy of Management’s        Self-Evaluation.    Management at the Services’
    inventory control points did not identify the accuracy of FLIS DSOR codes as
    an assessable unit; therefore, they did not identify or report the material
    management control weaknesses identified by the audit.



Summary of Prior Coverage

    No prior coverage has been done in the last 5 years.




                                        17
Appendix B. Sample Selection

Sampling Plan

    Sampling Purposes. In support of this audit, the purposes of the statistical
    sampling were to provide quantitative estimates of the percentage and number of
    items that were active and had erroneous DSOR codes, and also the percentage
    and number of items that were inactive.

    Sampling Frame. The original frame for our statistical sampling included
    410,308 nonconsumable items in the FLIS universe as of March 31, 1996.
    Subsequently, 50 items were removed from the statistical frame and audited
    judgmentally.

    Sampling Design. Stratified sampling was used for this audit. Strata were
    defined operationally in terms of Service-use, Service-repair, and DSOR code
    categories with different anticipated percentages of erroneous DSOR coding (see
    Table B. 1).

                          Table B.l.      Sample Stratification

                                                                        Random   Judgmental
     strata     Risk         Definition            Universe   Percent   Sample   Sample Size
                                                     Size                Size
       1       High     Multiple Service            3,928      1.0         30        30
                        use and repair;
                        DSOR code 99 or
                        blank
       2       High     Multiple Service            1,021      0.2        30         10
                        use and repair;
                        other DSOR codes
       3       High-    Multiple Service           41,448      10.1       30         10
              Medium    use; single repair
                        source; DSOR code
                        99 or blank
       4      Medium    Multiple Service              0         0          0          0
                        use; single repair
                        source; other
                        DSOR codes
       5      Medium-   Single Service use;        327,860    79.9        80          0
               LOW      multiple or single
                        repair source; all
                        DSOR codes
       6       LOW      Single Service use         36,051      8.8        30          0
                        and repair; other
                        DSOR codes
     Total                                         410,308               200         50




                                              18
                                                    Appendix B. Sample Selection


Sample Results

    We calculated statistical estimates of percentages and the number of inactive and
    active items with DSOR errors from the sample data, as shown in Table B.2.

                           Table B.2. Sample Results

                                        95Percent Confidence Intervals

                              Lower                Point                 Upper
     Inactive Items           Bound               Estimate               Bound
        Percent                  57.6                 65.3                73.1

        Number                236,353             268,104             299,854


     Active Items with
     Incorrect DSOR
     Codes

        Percent                  18.7                 26.6                34.4

        Number                 76,920             108,973             141,025



    With 95 percent confidence, the percentage of active items with incorrect DSOR
    codes in the universe (sampling frame) defined above is from 18.7 percent to
    34.4 percent. With the same confidence level, the number of those active items
    with DSOR errors is from 76,920 to 141,025. The point estimates,
    26.6 percent and 108,973 items, respectively, are the statistically best unbiased
    single value estimators of the universe values for active items with incorrect
    DSOR codes.

    With 95 percent confidence, the percentage of inactive items in the universe
    (sampling frame) defined above is from 57.6 percent to 73.1 percent. With the
    same confidence level, the number of those active items with DSOR errors is
    from 236,353 to 299,854. The point estimates, 65.3 percent and
    268,104 items, respectively, are the statistically best unbiased single value
    estimators of the universe values for inactive items.




                                        19
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Logistics)
      Assistant Deputy Under Secretary of Defense (Materiel and Distribution
        Management)
      Assistant Deputy Under Secretary of Defense (Maintenance, Policy, Programs,
         and Resources)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)


Department of Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Director, Dudley Knox Library, Naval Post Graduate School
Auditor General, Department of the Navy


Marine Corps
Commandant, Marine Corps


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          20
                                                     Appendix C. Report Distribution




Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Federal Organizations                  and Individuals
Office of Management and Budget
General Accounting Office
   National Security and International Affairs Division
      Technical Information Center

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                           21
Part III - Management Comments
Acting Deputy Under Secretary of Defense
(Logistics) Comments

                        OFFICE       OF   THE     UNDER       SECRETARY           OF   DEFENSE

                                             3000 DEFENSE   PENTAGON
                                            WASHINGTON.   DC 20301.3000



ACO”ISITION    .ND
  TEC*NOLOG”                                                                                      c : :,-p !99
      hlEXIOR~~DL’b1        FOR THE INSPECTOR   GENER4L   OF THE DEPARTMENT   OF DEFENSE
                                    (.4Tn’: DIRECTOR.  READINESS AND LOGISTICS SUPPORT,

      THROCGH:        CHIEF.     C’ONGRESSIOS.4L        ACTIONS       AkD IXTERK.4L        REPORTS      a$     f/,@d

       SUBJECT:      Audit Report   on the’ Depot Source of Repair Code (Project No. 7LD-5032)



               \I’our memorandum    of February 27. 199s requested         that we re\ KU and comment        on the
       draft audit report on the depot sourer: of repair code.

                V+‘cconcur u ith the tindings and recommendations         of the audit.
                           ..                    \,
                 Rscommendxions     I and 2 \\ere identified in the repon for action b> the Deput! l_‘n&r
        Secretary of Defense I Logistics).   C’pon issuance of the final audit repon. the .4ssistant Dsput!
        L’nder Sscre:ar\, of Defense (hlateriel and Distribution      hlanagementj    \\ill initiate actions to tJsk the
        Seriices and the D~frnse Logistics Agent\- to implement these t\\o recommendations.                 D&Is
        concerning completion dates u ill be protided      at a later date after completion of necessar! planning




                                                             cting Deputy Under Secretan
                                                               of Defense (Logistics)

         cc:
         ChIC
         ASN(FM&C)
         AS.4F(FXlBC)
         Auditor General.   DA
         Director. DLA




                                                             24
Joint Logistics Commanders                                                             Secretariat
Comments

            DEPARTMENTOFTHEARMY                                                                     DEPARTMENT OF THE NAVY
      NEADOUARTERS          US ARMY MATERIEL  COMMAND                                      OEPUTY   CNIEP 0~ NAVAL   OPERATIONS      (~001sncs~
   SO001 EISENHOWER        AVE., ALEXANDRIA. VA 223’XbOWI                                              WASHINGTON.   DC 20150.2000




            DEPARTMENTOFTHE                 NAVY                                                DEPARTMENT OF THE AIR FORCE
            “EAOOUARTERS         US MARINE CORPS                                            HEAOOUARTERS     AIR FORCE MATERIEL    COMMAND
                WASHINGTON.       DC 20380-0001                                                WRIGHT.PATTEASON     AFS. OHIO ,14,3-500,




                                                        DEFENSE LOGISTICS AGENCY
                                                            ,725 JOHN J. KINGMAN    ROAD
                                                              FT. BELVOIR, VA 220604221



                                             JOIST LOGISTICS COJIMASDERS
                                                            JOINT SECRETARIAT

                                                                                                                     21 Apr 98


                   hlEMORA..DCM              FOR DIRECTOR, READINESS AXD LOGISTICS SUPPORT
                                                   DIRECTORATE,  INSPECTOR GENERAL.
                                                   DEPARTMENT OF DEFENSE, 400 AJUlY KAVY DRIVE.
              ..                              ,%   ARLINGTON, VIRGINIA 22202-2884


                      SUBJECT:        Audit Report on the Depot Source of Repair Code (Project No. 7LD-5052)

                      1. We concur with recommendation 6 in subject report (draft) “to direct the Joint Policy
                      Coordinating Group on Depot Maintenance to analyze maintenance facility duplication
                      identified in this audit for potential workload consolidation.” We will require the group
                      to develop a plan of action with milestones and to provide the stat-us of work on this task
                      in periodic reports to the Joint Secretariat.

                      2.    Please contact me at 617-9695      if you have any questions regarding this matter




                                                                                    AMC Member, Joint Secretariat


                      cc:    Ms.Sherry Ott (AFMCIDRE)
                             CDR Trish Van Belle (N424E)
                             Capt Reid Merrill (USMC Code LPP-0)
                             CDR Steve Roman0 (DLA/MMCSD )
                             Mr. Dave Barton (AMCLG-MT)




                                                              25
Department of the Army Comments


                                  DEPARTMENT OF THE ARMY
                         OFFICE OF ME DEPUTY CHIEF OF STAFF FOR LOGISTICS
                                       SO0 ARMY PENTAGON
                                     WASHINGTON DC 203lO-OMo




    DALO-SMF




    ASSiSTANT


     FCF. INS?ETOP.   GENERAL,    DEPAR~ENT          OF DEFENSE                        (AEIT:NS;

     SL’E;ECT : Draft A-dit ReFcrt cn the                 Depot Source                         of Regalr             Cede
     (Frc]ezt tie. 7LD_5O32)--Ih'F,3R~~Ti3N               MEMORANLW


     1.   This is in response  to USAAA memorardum    of 5 Mar 98 (Tab A),
     which asked ODCSLOG to respond     to your memorand,Jm of 27 Fet Sa
     (Enc? to Tab A).   YOU   memorandum   requested  OCCSLOG to re‘7ie.d
     slblezt draft a,~dlt ar.d fir&ide   comme?.ts.

     2.   The DCSLOG concurs wrth the intent of the recommendations.
     The Army, in cocjunctlon     with the Joint Depot Maintenance
     Analysis Group,    has revised the erroneous   data in the DOD manual.
     The modification    of the DeFot Source of Repair Code (DSOR)
     validatron   routine has also been completed.       The systems'      changes
     to ccmplete   the edlt modification   process  a:e targeted     for
     ccmRletion   2Q FY 99.   This should eliminate    the  vast  malcrity      of
     problems   identified  in the audit while assignment      of DSGR codes
     is in prccess.

     3. The Army will delete the inactive       items through the normal
     Defense Inactive    Item Program.   To delete the inactive   items off-
     line in the interrm    would be merely cosmetic   and inefficient.

     4.   Since the Army is changing   its system loaic to correctly
     update the DSOR, retraining   will not be required.   Update of the
     DSSR will'be transparent   to the catalogers.




                                                                 I.
                                                                      .,   ,;~-,‘..“._‘.             _.    .,   .
                                                                                                                    .-   --...-_:._I        *._



                                                                 :..;..            -
                                                                                                                                            ..A
                                                                                                                                        a

                                                                                                                                  ,-.
                                        Crnla   on
                                                     0    h=Nw   ew                                         ., ,* L ‘.’
                                                                                           OAS4fL) *7. . ..*6 . . . ___-_
                                                                                                                    . . . . .-..-..-




                                                         26
                                            DeDartment of the Armv Comments




DALO-SX?
SUBJECT:  Draft Audit Report on the Depot Source           of Repair   Code
(Project No. 7LD-5032) --ISFORMP.TION MENOFANDUM


5.   The Army's   detailed   corrments are at Tab B.




2 Encls
                         qjijgijijgi~~

                                         and Yaintenance

CF:
VCSA
CDP., USZXC
S>.G-PhIF-E
DALO-Z;C:
DhLO-m?I


USAMC (AKCLG-S) - Concur, Kr. Malter/617-8&09   (E-mail)
USAKC $?,M.CIR-A)- C&cur, Y-r. Kurzer (E-rail)
OASA(I,L&E) - Concur, Mr. Groom/697-5727   (E-nail)




                                                       Ms. Tutor/697-7061




                                    27
    Department   of the Army Comments




                                                   DEPARTMENT         OF THE ARMY
                                             W~DQUARTERS.     U.S. ARMY   MATERIEL   COMHAMO
                                          MO1 EISENHOWER    AVENUE.   ALEXANDRIA.    VA   22333~0001


                             “EPL” 70
                            *T:LYTmW OF

                 ?J!CIR-A (36-2a)                                                                  23 April 1998


                 MEMORANDUM FOR Ms. LINDA TUTOR, OFFICE Cf THE APNY DEPUTY CHIEF
                                  OF STAFF FOR LaGISTICS, 109 APJ?Y PENTAGCN,
                                  WASSINGTON, DC 20310-0109
                                                    ..
                 SUBJECT:  DODIG Draft Report, Depot Source of Repair Code,
                 Project 7LD-5032 (AX No. D9815)


                 i.    We are enclosing our position on subject report TAX hR 36-2.

                 2. Point of contact for this acticn is Wr. Robert Kurzer,
                 (703) 617-9025, e-mail - bkurzer@hqamc.army.mil.

                 3.    AX     -- America's Arsenal fcr tte Brave.

                 FOR   T!i&C3MwQJDER:             '\




                 End                                                         ES M. LINK
                 as                                                         ]or General, USA




.




                                                              28
                                       Department      of the Army Comments




                        DODIG DRAFT REPORT
              DEPOT   SOURCE OF REPAIR CODE          (DSOR)
                       PROJECT NO. 7LD-5032


FINDING.

DEPOT SOURCE OF REPAIR CODE ACCURACY.   Of the 410,308
nonconsumable items in the Federal Logistics Information System
(FLIS), an estimated 268,104 items (65.3 percent) were inactive.
For the remaining active items, an estimate of 108,973 items
 (26.6 percent of 410,308 total items) had erroneous DSOR codes.
The codes were inaccurate because procedures that DOD personnel
used to ensure accurate code input and transfer to the FLIS were
not adequate.   Specifically:

    a. Edits for FLIS and Service cataloging did not prevent
some erroneous DSOR codes from transferring to the FLIS.

    b. DOD Manual 4100.39-M did not contain          all the necessary
depot repair locatiOn codes.
      -r
    C.  The Army and Navy cataloging       systems   contained        coding
translation deficiencies.

    d. The Services did not establish a requirement              to
periodically validate FLIS DSOR code accuracy.

    e. The Services     did not properly    train personnel       in the
DSOR coding process.

     f. The Air Force and Marine Corps did not develop Service-
 specific guidance for manual DSOR coding and cataloging.

     g.    The Services were classifying    items inconsistently.

'.s 'a result, DOD maintenance managers did not have available the
6 ata necessary to identify potential duplicate repair facilities
!and resource inefficiencies.   In addition, approximately  $0.5
 million of inventory unused in one Service could be transferred
 to other Services to reduce planned procedures.




                                  29
Department   of the Army Comments




       RECOMMENDATION       AND ACTIONS      TAKEN

       RECOMMENDATION  3.  We recommend that the Commander, USMC,
       Commander, Naval supply Systems Command, Commander, Air Force
       Materiel Command, and Marine Corps Deputy Chief of Staff
        (Installations and Logistics) :

            a. Coordinate with the Defense Logistics Services Command
        to develop a systems capability to update the Federal Logistics
        Information system by deleting inactive items and correcting all
        erroneous data for remaining active items.

            b.  Establish    a requirement     to periodically   validate   DSOR
        code accuracy.

            C.   Train all personnel involved in the DSOR coding process
        to input DSOR codes accurately and timely and perform DSOR code
        validation.

        ACTION TAKEN.   Concur in Part.   We do not concur in initiating
        large-sca-le retraining'program  or establishing periodic or
        cyclical DSOR validation programs.    However, the changes we are
        making to systems, particularly the edits, should eliminate the
        vast majority of problems found in the audit while assignment of
        DSOR codes is in process.    This is a very cost-efficient
        solution.   The recommendations for training and cyclical quality
        control would drain scarce resources, increase customer
         surcharges, and would not guarantee responsive change to
         customers.  We note, the DODIG did not provide a cost-benefit
         analysis.

         RECOMMENDATION 4. We recommend that the Commanders, USAMC and
         Naval Supply Systems Command, correct deficiencies in their
         cataloging systems for translating repair codes.

         ACTION TAKEN.   Concur.   We have initiated a two-phase program to
         corlfect the system deficiencies reported in the draft audit.
         Systems Change Request XLSCIP608205(145)   has implemented the
         revised DOD 4140.39M, Tables 117 and 126. These tables were the
         product of the Joint Depot Maintenance Analysis Group, thus
         accommodating the coordination requirement recommended in the
         audit.   In addition, Phase I modified the DSOR valid edit
         routine.   Phase II will complete the edit modification process.
         Phase I is complete.    Phase II is being accomplished under SCR
         XLSCIP608205.    Target for completion of Phase II is 2Q FY 99.




                                          30
Department     of the Navy Comments


                              DEPARTUCIC~OFTW         NAVY
                            OFFUI   OF TWE LQSWAW    8SRTMY




       MEMORANDUM FOR THE DEPAR’PH~           OF    DErFNSE ASSISTANT INSPECTOR
                                 GENERAL     TDR AUDITING

        SUBJECT:    DODIG Report: Depot SOUrCe of Repair Code
                    Accuracy (Report  No. 7LD-5032) - Xnfomation
                    Uemorandum       .

        REEmEtKx!     (a) WDTG      Report   7LD-5032 of 27 February     1998

        ENCLOSURL:    (I) Department Of The Navy Comments ti DODIG
                      Draft Audit Report On bpot Source of Repair
                      Code Accuracy (FtwportNo. 7LD-3032)
                       (2) Marine Corps Comments On WDIG  Draft Audit
                      Finport On Depot Source of Repair Coda (Project
                      No. 7LD-5032)

              We have reviewed the findangs and recomnmdations
         provided by csference (a) and ccncur with Recommentiticne
      *_ 3.a, 3.t, 3.c, 4 and 5 ae directed to the Navy and HarFne
         Corps. The Navy and HarFnc Corps responses are provided in
         enclosures (1) and (21, reapcctivaly.




                                               WILLIAM J. SCHAkkR
                                               Deputy Assistant Secrttazy
                                               c;fthe Navy
                                               irlanning,Program&g,   ant!
                                               Resources




         copy to:

         RIO-31
         COMNAVSUP(91e)
         CMC (Rra-20)




                                        31
Department    of the Navy Comments




                               Dqeutm.mnt   Of The N8v           C-t0
                                                Qa
                                   DaDIC Drdtkrdit             Rmptt
                                              QI
                             brpot SourolrOf Upmir            todr   lrocnrrrcy
                                     (Pro joet Uo .   7LD-5032)




        Of 410,309 aoncons~ble   items recorded in the E'L.13,an
        estimated 263,104 items (65.3 perC@nt) ware inactive. For
        the remaining active itana, an estimated 106,973 items (26.6
        percent of 410,308 total itemal had ertoneous DSOR codes.
        The codes uere Inaccurate because procedures and controls
        that DOD personnel ueed to ennuxa accur?ts code input and
        transfer to ths FLIS were not adequate.             i ’
        Y-y     -t:

         Concur. A change in the UICP-DLSC Data'lnterchange Progra,
         (A/O C13) was completed on 1 October 1997. This ensures
         compatibility for accurate code input and transfer to the
         FL1.s.

         Slm~tiona                for CorrpctiV*      &tiop
                         ”



         bmdrtian       3. .we recommend that the Commanders, Amy
         Material Commati, Naval Suppiy System  Conmar.d, and Air
         Force Material Command, and the Marine Corps Deputy Chief of
         Staff        (InstClation     and Logistics):

                 Coordinate with the Defense Logistics Service9
         Con&d   to develoo a systm caoability to update the Federal
         Logistics Informaklon System by deleting inactive items and
         correcting all erroneous data for remaining active items.



         Concur. We agree that a cost effective method for correcting
         existing active items is needsd and will work with DLSC in
         developing that capability. New codes being developad by
         Navy representatives to the Joint Depot Maintenance Analysis
         Group IJlMFiG),vhen mada available for use, will provide the
         necsasary data to eliminate 01roneou8 codes.




                                                                                  Enclosure (11




                                                      32
                                          Department    of the Navy Comments




         b.  (u) establish a req~ire&nt   tc   periodically
    validate DSOR code accuracy.



    Concur. WC agree that periodic validation is desirable.
    Additional intra-Navy interfaces and prograrmring changes
    need to be dcvelopsd to transmit accurate  DSOR codes to the
    FLIS. Systems develoIxnent required to tiplement the actions
    above will be completed in July 1999.


           a. (U] Train all personnel involved in the DSCR coding
    process to input   DSOR codes accurately and timely and
    perform   DSOR code validation.




    Concur. We will address specific deficiencies ao    they
    appear.


    Ilcoamedation  4.  (U) Ma recommend that the Corrmnders.
    Army Material Command and Naval Supply Systems Command,
    correct deficiencies in their cataloging systms  for
    translaling repair codes.



    Concur. Deficiencies in the cataloging system for
    translating repair codes vere corrected  with changes to the
    UICP programs mandated by DLSC. Implementation was 1 October
    1997. To make correct aaaignrrents, new codes being developed
    by Navy representative3 to the JDEAS need to be rade
    available for use.




                                                       Enclosure   (II




L




                                     33
Department    of the Navy Comments




                                     m           carps     -ta
                                                    on
                                 DOD10     Draft     Audit tipart
                                                    om
                               Depot     Source     of Bapir    Codm
                                     (?ro jrct    No. 7u)-5032)




        _adationm              Por    Corr*ct.iVe        tit200


        ~~wandati~a    S. Ue  recommend that the Commandsrd, Army
        Haterial Commend, Naval Systans Command, and Air For&
        Mazerfal Commbnd, and the Marine Corps Deputy Chief of Staff
        (Installations and Logistics):

                   a.    Coordinate with rho Defsnaa Logistics Services
        Colmnand to develop a system capability to update the
        federal Logistics Informtion System by deleting ir.active
        items  ml  correctins   al 1 erroneous dara for renaining active
        items.

        Marina  Corps &ply:  The Marine Corps 'czacurs in the
         recosunendation. The MaBine Corps is pursuing development
         and incor$bration of the sysrem capability to update the
         PLIS via Phase III (Depot Xainteaance), cf the Marine   Corps
         Asset Tracking fez Logrstlcs and Supply System (ATLASS).
         Estimated completion date 9s 31 December 2OOC.

                       b.     Establish a requirement to perlodlcally
         validate     DSO!?   code accuracy.

         t%ui.na corps -1y:     The Marine Corps concurs in the
         recommendation.    Action was implemented in August 1997 uhich
         requires the Commander, Marine Corps Logistics Eases
          (COMMARCORU>GBASES) to conduct file maintenance (with
         periodic reviews) to ensure that the assigned DSOR code
          reflected In the TecF.nlcal Data Management System and the
         Federal Logistics Information   System, once there, rcnair.
         current.

                    c. Train all perionnel involved in the OSOR coding
          process to input DSOR codes accurately and timely and
          perform DSOR code vaU,dation.

          HarIM Corpm -1rr     The Marine Corps concurs in the
          recommendation. The COWlrARCORt0GBASE.Sha3 implemented seai-
          annual required DOOR code training sessions for all
          equipment specialist/provisioners, veapon system managers,


                                                                       Enclosure   (21




                                                         34
                                    Department   of the Navy Comments




catalogers, and item nanagcra.  Once trained, these
individuals are required tc research the applkaLior. files,
provisioninq files, and cataloging files to validate t.he
accuracy of assigned DSOR codes.

RcnaQmndation   5. 'We recouunsnd that the Commander, Air
Force Material Command and the Marine Corps Deputy Chiaf of
S:af f (Installations and Logistics) develop Service-specific.
guidance for manual DSOR coding and cataloging.

Wina   Corps Asply: The Harint Corps concurs in the
recommendation. This recomendatioh was implemented by
COMMRCORLOGDASES   Policy Statement 11-97. "Xssignment of
Depot SOUECC of Repair (DSOR) 'Coded" of 5 August 1997. This
policy provides aervke-specific guidance and procedures fol:
manual CSOR coding and cataloging. (




                                                 Enclosure    (2)




                              35
Defense Logistics Agency Comments


              -?A
              27,   *



                        8
                                         DEFENSE


                                       8725     JOHN   J
                                                             LOGISTICS
                                                           HEADQUARTERS
                                                            KINGMAN      ROAD,
                                                                                 AGENCY


                                                                                  SUITE   2533
                                              FT. BELVOIR.    VIRGINIA     22060-622      1



 REPLV
 AEFE?   TO
                                                                                                 1   MA’(   N’3fl
              DDAI


              MEMOR4NDL’Xl        FOR DIRECTOR. READINESS AND LOGISTICS SUPPORT, OIG,
                                         DEPART>lENT OF DEFENSE


              SUBJECT:      Draft Report on Depot Source of Repair Codes, 7LD-5032


              In response to your request of 27 February 1998. the follo~ving comments and recommendations
              are provided:

                    a. Page I I, paragraph 2a. This paragraph recommends that DLA be tasked to update the
               Federal Lo&tics Information System Procedures Manual (DOD Manual 4100.39-M). Table 117
               with correct depot repair codes. The DSOR codes contained in Table 117 are not used to identif
               the repair source for national stock numbered items. These DSOR codes are used to identify;
               authorized depot sources of repair which item managers use for cataloging in the Federal
               Logistics Information System (FLIS). Part II of Table 117 and pages 4 and 5 of DoD Manual
               4100.39~%t assigns the Military Services’ Maintenance Interservice Suppon Offices (MIS&IO)
               the responsibility of keeping the codes in Table I17 updated. Pages 4 and 5 of the manual also
               delineates the procedures the ~IlS;LIOs. the Joint Depot blaintenance Analysis Group (JDMAG).
               and the Air Force Cataloging and Standardization Center (CASC) are to use to coordinate and
               submit changes to Table 1 I7 and (FLIS). Once the changes are coordinated amongst the Militar:
                Services, JDhlAG submits the changes to DLA’s Defense Logistics Information Service (DLIS)
                who update the DOD Manual and FLIS. These procedures work well. What is needed is for the
                MISYvlOs to generate the DSOR code changes faster, if that’s possible, so DLIS can make the
                changes required to correct the problems caused by erroneous DSOR codes. Recommend this
                reco mendation be revised to highlight the need for the Military Services’ MISMOs to
                act jn erated their actions to update the codes contained in Table 117, DOD Manual 4100.39-M.

                    b. Page 1 I, paragraph 2b. This paragraph recommends that DLA be required to periodically
                validate DSOR codes accuracy by identifying blank codes or code “99’. and referring the items t
                the Military Services’ MISMO offices for correction. This requirement already exists.
                Procedures to validate DSOR code accuracy were not implemented by DLIS immediately
                following the implementation of the DSOR code in FLlS’s Total Item Record due to ongoing
                systems modernization activities. In 1988, System Change Request (SCR) 88 I8 10 I was initiate




                                                    36
                                                    Defense Logistics Agency Comments




Page 2
Subject:   Draft Report on Depot Source of Repair Codes. 7LD-5032


to make this and other changes to FLIS. In 1991, many of these changes were implemented.
Actions are ongoing between DLIS and JDMAG to accomplish all the changes contained in the
SCR. An estimated completion date for the remaining changes is not determinable at the present
time. Recommend this recommendation be deleted from the report.

Should you have any questions, please contact Sharon Entsminger. 767-6267.




                                          _
                                                Deputy Director


 cc:
 DLSC-BO
 DLSC-fiC




                                        37
Audit Team Members


The Air Force Audit Agency managed this joint audit and the following
team members made significant contributions to the report.

Stan Borek                                    Air Force Audit Agency
Jeff Dye                                      Naval Audit Service
Chris Hake                                    Air Force Audit Agency
Steve Houlette                                Air Force Audit Agency
Ann Kruszewski                                Naval Audit Service
Jim Nowicki                                   Army Audit Agency
Rob Schonewolf                                Inspector General, DOD
Michelle Shicora                              Air Force Audit Agency
Frank Sonsini                                 Inspector General, DOD
Jan Thomas                                    Air Force Audit Agency
Raymond Van Horn, Jr.                         Air Force Audit Agency
Chong Young                                   Inspector General, DOD
Shelton R. Young                              Inspector General, DOD
